December 5, 2013

The Honorable Charles T. Hagel
  Secretary of Defense

General Lloyd J. Austin III
  Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
  Commander, U.S. Forces–Afghanistan and
  Commander, International Security Assistance Force

This letter is to inform you that the Special Inspector General for Afghanistan Reconstruction
(SIGAR) Office of Special Projects is starting a review of the terminated G222 (C-27A) aircraft
program.1

In 2008, the Department of Defense (DOD) initiated a program to provide 20 G222s to the
Afghan Air Force (AAF). The G222s are twin propeller military transport aircraft built in Italy. In
January 2013, the DOD Inspector General (DODIG) reported that the G222 Project Management
Office (PMO) and the North Atlantic Treaty Organization (NATO) Training Mission–
Afghanistan/Combined Security Transition Command – Afghanistan (NTM-A/CSTC-A) did not
properly manage the effort to obtain the spare parts needed to keep the aircraft flightworthy.2

Despite spending at least $486.1 million in acquisition and sustainment costs on the program,
DODIG reported that the aircraft flew only 234 of the 4,500 required hours from January through
September 2012. The DODIG also concluded that an additional $200 million in Afghanistan
Security Forces Funds might have to be spent on spare parts for the aircraft to meet operational
requirements, noting that several critical spare parts for the aircraft were unavailable.

In December 2012, the Program Executive Office (PEO) for Air Force Mobility Programs at the Air
Force Life Cycle Management Center notified the contractor that it would not issue a follow-on
sustainment contract. As a result, the mission capability rates and flying hours of the aircraft
were negatively impacted. In March 2013, the PEO also indicated that the AAF would use an
alternate aircraft to meet its long-term medium airlift requirement, effectively ending ending the
G222 program.


1The C-27A is a modified G222 airframe manufactured by Alenia Aermacchi in Italy. However, the DOD refers to the
modified airframe provided to the AAF as the G222.
2 DODIG-2013-040, “Critical Information Needed to Determine the Cost and Availability of G222 Spare Parts,” January 31,
2013. The Council of Inspectors General for Integrity and Efficiency (CIGIE) recognized this DODIG audit for an Audit Award
for Excellence on October 15, 2013.
In November 2013, I visited Afghanistan and met with Brigadier General John Michel,
Commanding General for the NATO Air Training Command–Afghanistan, who explained what
went wrong with the G222 program and shared the results of a “lessons learned” review
designed to help prevent similar mistakes in the future.

Despite the actions taken by the NATO Air Training Command–Afghanistan, Congress remains
interested in, why DOD purchased aircraft that apparently could not be sustained and what will
happen to the G222s currently sitting unused at the Kabul International Airport and in Ramstein
Air Force Base Germany. Therefore, SIGAR is launching a review of the terminated G222 aircraft
program in response to these congressional concerns and the need to ensure that the U.S.
government does not repeat the mistakes made throughout this nearly half billion dollar
program.

Per our agency procedures, we coordinated this notification with other oversight bodies, and
obtained information on completed and ongoing audits related to our proposed objectives. We
appreciate that supporting this oversight project will require the time and attention of agency
staff, and we will try to avoid duplicative requests for information and meetings.

The enclosure provides information on the objectives and planned work for this review. Please
notify the appropriate individuals of this review. We would appreciate if arrangements could be
made to conduct an entrance conference during the week of December 22, 2013. Please
contact my Director (Acting) of Special Projects, Jerry W. Clark, at 703-545-5965 or at
jerry.w.clark50.civ@mail.mil if you have any additional questions and to make these
arrangements.

Sincerely,




John F. Sopko
Special Inspector General
  for Afghanistan Reconstruction

Enclosure

cc:
Lieutenant General Mark A Milley
   Commander, International Security Assistance Force Joint Command

Major General Kevin R. Wendel
  Commanding General, Combined Security Transition Command-Afghanistan

Brigadier General John Michel
  Commanding General for the NATO Air Training Command-Afghanistan

The Honorable Jamie E. Morin
  Assistant Secretary of the Air Force (Financial Management and Comptroller)



                                                                                           Page 2
            OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION (SIGAR)
                                      NOTIFICATION OF SPECIAL PROJECT


SUBJECT
Lessons Learned Review of the G222 (C-27A) Aircraft Program

SPECIAL PROJECT CODE
SIGAR-SP-19

BACKGROUND
The drawdown of United States and coalition military forces from Afghanistan by December 2014 requires
the successful transition of military responsibilities to the Afghan National Security Forces. Senior U.S.
leaders have noted that providing close air support, evacuating the wounded, and resuppling military units are
only possible in Afghanistan with aircraft, but the Afghan Air Force (AAF) has encounted many challenges
establishing air capabilities to assume the duties previously provided by coalition forces.

In September 2008, the U.S. Air Force contracted with Alenia North America 3 to provide 20 G222 (C-27A)
aircraft to the AAF. On January 31, 2013, the Department of Defense Inspector General (DODIG) reported
that the G222 Project Management Office (PMO) and the North Atlantic Treaty Organization (NATO) Training
Mission–Afghanistan/Combined Security Transition Command – Afghanistan (NTM-A/CSTC-A) did not
properly manage the effort to obtain the spare parts needed to keep the aircraft flightworthy Despite
spending $486.1 million on the program, DODIG reported that the aircraft flew only 234 of the 4,500
required hours from January through September 2012. The DODIG also concluded that an additional $200
million in Afghanistan Security Forces Funds might have to be spent on spare parts for the aircraft to meet
operational requirements, noting that several critical spare parts for the aircraft were unavailable. In
December 2012, the Program Executive Office for Air Force Mobility Programs at the Air Force Life Cycle
Management Center notified the contractor that it would not issue a follow-on sustainment contract. The
Program Executive Office also indicated that the AAF would use an alternate aircraft to meet its long-term
medium airlift requirement, effectively ending the G222 program in March 2013.

Since then, the NATO Air Training Command – Afghanistan (NATC-A) conducted a “lessons learned” exercise
that outlines many of the problems experienced by the G222 program. This exercise, along with the other
reviews completed by DODIG and NATC-A, can provide a basis for analyzing the challenges that led to the
termination of the program and help prevent similar mistakes from reoccurring in other major major AAF
purchases.

OBJECTIVES
SIGAR will:
    1. Review the decision to provide 20 G222s to the AAF.
    2. Determine the total amount spent to procure, operate, sustain, and dispose of the G222s.
    3. Review future plans (disposal or otherwise) for the G222s.
    4. Evaluate what processes and controls have been put in place to prevent similar challenges from
       affecting future AAF purchases.



3   A subsidiary of Alenia Aermacchi.




                                                                                                        Page 3
ANTICIPATED LOCATIONS TO BE VISITED
We plan to conduct fieldwork in Washington, DC, and possible locations in Afghanistan.

SIGAR CONTACTS
       Jerry W. Clark, Director (Acting) of Special Projects, 703-545-5965, jerry.w.clark50.civ@mail.mil
       Nicolaus R. Heun, Senior Analyst, 703-545-6111, nicolaus.r.heun.civ@mail.mil




                                                                                                            Page 4
